         Office of Inspector General




May 26, 2006

SUSAN BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Controls Over Noncompetitive Contracts Awarded to Former
         Postal Service Employees (Report Number CA-AR-06-002)

This report presents the results of our self-initiated audit of the controls over
noncompetitive contracts awarded to former U.S. Postal Service employees (Project
Number 05BG014CA000). Our overall objective was to determine the effectiveness of
controls over noncompetitive personal services contracts awarded to former Postal
Service employees.

The audit confirmed that the effectiveness of controls over noncompetitively awarded
contracts to former Postal Service employees needed improvement. Specifically, we
determined that market research was inadequate, contract statements of work needed
improvement, and employees were misclassified as independent contractors when,
according to Internal Revenue Service guidance, these individuals should be classified
as employees and have the appropriate payroll taxes withheld. It was estimated that
the Postal Service could have saved about $137,636 by improving controls over the
personal services contracts and ensuring the more favorable prices were negotiated.
We will report the $137,636 as unrecoverable costs in our Semiannual Report to
Congress. We made five recommendations to address the situations identified during
the audit.

Management agreed with our recommendations and has initiatives in progress,
completed, or planned addressing the issues in this report. However, management did
not agree with the calculation of the $137,636, stating they do not agree with the
General Services Administration (GSA) labor categories selected because they did not
match the work being performed under contract. In addition, it was stated that the U.S.
Postal Service Office of Inspector General analysis did not consider the cost benefit
associated with using former employees with specific Postal Service knowledge and
experience. During the course of this audit, however, we considered prior Postal
Service experience, former salaries, pay grades, and employee position descriptions, in
an effort to fairly evaluate each individual’s experience. We also obtained GSA’s
contracted rates for like jobs at applicable locations. The exceptions were used to
calculate unrecoverable costs.
Management’s comments and our evaluation of these comments are included in the
report.

We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions or need additional information, please contact
Judy Leonhardt, director, Supply Management and Facilities, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc: Anthony J. Vegliante
    Robert J. Pedersen
    Marie K. Martinez
    Steven R. Phelps
Controls Over Noncompetitive Contracts                              CA-AR-06-002
 Awarded to Former Postal Service Employees


                                 TABLE OF CONTENTS

 Executive Summary                                                                 i

 Part I

 Introduction                                                                      1

    Background                                                                     1
    Objectives, Scope, and Methodology                                             1
    Prior Audit Coverage                                                           3

 Part II

 Audit Results                                                                     5

    Controls Over Noncompetitive Personal Services Contracts Need                  5
    Improvement

         Inadequate Market Research                                                5
     Recommendations                                                               6
     Management’s Comments                                                         6
     Evaluation of Management’s Comments                                           7

         Contract Statements of Work Need Improvement                              7
     Recommendations                                                               9
     Management’s Comments                                                         9
     Evaluation of Management’s Comments                                           9

         Employees Versus Independent Contractors Classification               10
     Recommendation                                                            12
     Management’s Comments                                                     12
     Evaluation of Management’s Comments                                       12

 Appendix A. Abbreviations                                                     13

 Appendix B. Calculation of Unrecoverable Costs                                14

 Appendix C. Management’s Comments                                             16
Controls Over Noncompetitive Contracts                                   CA-AR-06-002
 Awarded to Former Postal Service Employees


                                 EXECUTIVE SUMMARY
 Introduction                 The U.S. Postal Service Office of Inspector General
                              conducted a self-initiated audit of controls over
                              noncompetitive contracts awarded for personal services,
                              including justifications, approvals, market research, and
                              pricing. Our overall objective was to determine the
                              effectiveness of these controls over noncompetitive
                              personal services contracts awarded to former U.S. Postal
                              Service employees. Specifically, we determined whether
                              Postal Service management properly justified and approved
                              noncompetitive purchases. Additionally, we evaluated the
                              adequacy of pricing procedures.

 Results in Brief             The Postal Service could have saved about $137,636 by
                              improving controls over the award, administration, and
                              pricing of noncompetitive personal services contracts.
                              Additionally, contract Statements of Work (SOWs) did not
                              always provide sufficient detail to establish a measure of
                              performance or appropriately classify the personal services
                              contractors, as required by Interim Internal Purchasing
                              Guidelines (IIPG) and Internal Revenue Service (IRS)
                              guidelines.

                              These conditions occurred because purchasing teams did
                              not always perform market research and price analyses or
                              fully adhere to formal Postal Service purchasing guidelines.
                              In addition, the current IIPG and Supply Management
                              Administrative Instruction 2004-013, Personal Services
                              Contracts, do not provide sufficient information about the
                              classification and/or treatment of independent contractors
                              versus employees. As a result, the Postal Service paid
                              more than necessary for the services contracted, did not
                              always clearly state performance measures to assess
                              contractors’ performance, and inconsistently classified
                              personal services contractors for tax- and labor-related
                              issues.

 Summary of                   We recommended the vice president, Supply Management,
 Recommendations              instruct purchasing teams to always perform thorough
                              market research and price analyses as part of the
                              noncompetitive contract award process; consider using
                              multiple sources for determining price reasonableness —
                              including comparing proposed rates with independent
                              sources, such as General Services Administration


                                               i
Controls Over Noncompetitive Contracts                                   CA-AR-06-002
 Awarded to Former Postal Service Employees


                              Schedules — to determine fair and reasonable pricing
                              during the market research; and review all contracts and
                              related SOWs awarded to individuals to ensure contractor
                              status is appropriately reflected and taxes are withheld as
                              outlined in Supply Management Instruction SM 2004-013
                              and the IIPG. We recommended the vice president, Supply
                              Management, instruct purchasing teams to reinforce to
                              clients seeking professional or technical services from
                              individuals that SOWs must clearly identify the scope of the
                              personal services to be performed within the IIPG definition
                              at 4.5.4.a and include methods for measuring performance
                              under the contract; and update IIPG paragraph 4.5.4.a to
                              ensure that the purchasing teams understand they may
                              apply any of the elements that define a personal services
                              contract when classifying an individual’s contract as a
                              personal services type. This update would also improve
                              compliance with relevant IRS information on the
                              identification of employees versus independent contractors.

 Summary of                   Management agreed with the recommendations and has
 Management’s                 initiatives in progress, completed, or planned addressing the
 Comments                     issues identified in this report. Management’s comments, in
                              their entirety, are included in Appendix C.

 Overall Evaluation of        Management’s planned actions are responsive to the
 Management’s                 recommendations and should correct the issues identified in
 Comments                     the findings.




                                               ii
Controls Over Noncompetitive Contracts Awarded                                  CA-AR-06-002
 to Former Postal Service Employees


                                  INTRODUCTION
 Background                   The primary goal of U.S. Postal Service purchasing is to
                              support its business and competitive objectives. To meet
                              this mandate, purchasing teams — headed by a contracting
                              officer — determine the most effective business practices
                              for a given purchase. These business practices include the
                              determination as to whether management should make a
                              purchase competitively or noncompetitively. According to
                              former and current Postal Service guidelines, generally,
                              purchasing teams should make purchases valued at more
                              than $10,000 on the basis of adequate competition;
                              however, they may decide that the most effective business
                              practice is to make the purchase noncompetitively.

                              In some cases, the business and competitive objectives of
                              the Postal Service may best be met through the
                              noncompetitive purchase method. The four business
                              scenarios in which the noncompetitive method may prove
                              the most effective are:

                                  •   Compelling business interest.

                                  •   Industry structure or practice.

                                  •   Single source.

                                  •   Superior performance.

                              Interim Internal Purchasing Guidelines (IIPG), paragraph
                              2.1.4.a, state market research is central to sound purchase
                              planning. Market research helps determine what supplies
                              or services are available, what suppliers are available, how
                              to best state requirements, and whether price or cost
                              estimates are realistic. In addition, purchasing guidelines
                              require purchasing teams to ensure that contract prices are
                              fair and reasonable by evaluating proposed prices using
                              price or cost analysis methods.

 Objectives, Scope,           Our overall objective was to determine the effectiveness of
 and Methodology              controls over noncompetitively awarded contracts.
                              Specifically, we determined whether Postal Service
                              management properly justified and approved
                              noncompetitive purchases. Additionally, we evaluated the
                              adequacy of procedures for pricing noncompetitive
                              purchases.

                                             1
Controls Over Noncompetitive Contracts Awarded                                                             CA-AR-06-002
 to Former Postal Service Employees



                                     To accomplish our objectives, we interviewed contracting
                                     officers at Postal Service Headquarters and the Aurora
                                     Purchasing Services Center and obtained and reviewed
                                     contract file documentation and position descriptions. We
                                     obtained data from the Contract Administration
                                     Management System, applicable Employee Master Files,
                                     and pay history files. We also consulted with the U.S.
                                     Postal Service Office of Inspector General (OIG)
                                     statisticians and OIG Legal services.

                                     To define the scope of our audit, we requested a list of all
                                     active noncompetitive contracts from the Contract
                                     Administration Management System database.1 We
                                     received a total of 3,303 contracts valued at more than
                                     $5,133,792,543. Because of the number of contracts with
                                     individuals, we then requested the Computer Assisted
                                     Assessment Techniques team to compare the Taxpayer
                                     Identification Number and Social Security Number
                                     (TIN/SSN) field in the contracts file to the SSN field of the
                                     current and prior Employee Master Files. This comparison
                                     identified 205 noncompetitive contracts the Postal Service
                                     awarded to former employees, valued at $11,595,406.
                                     From this population of 205 contracts, we excluded
                                     45 contracts awarded to former Postal Service inspectors.2
                                     In addition, we excluded 16 contracts awarded for renting
                                     personal vehicles because we considered them to be
                                     outside the scope of this audit and excluded one contract
                                     that had been transferred to Dallas, Texas.

                                     We statistically sampled the remaining 143 contracts. For
                                     each contract sampled, we evaluated such items as the
                                     noncompetitive justification, statements of work, market
                                     research, price analysis, and overall contract approval.

                                     We conducted this audit from September 2005 through
                                     May 2006, in accordance with generally accepted
                                     government auditing standards and included such tests of
                                     internal controls as we considered necessary under the
                                     circumstances. We did not rely on any computer-generated




1
  The OIG Computer Assisted Assessment Techniques team extracted data.
2
  We provided the list of former Postal Service inspectors to the director, Oversight of Investigative Activities,
for review.

                                                        2
Controls Over Noncompetitive Contracts Awarded                                    CA-AR-06-002
 to Former Postal Service Employees



                              data to support the opinions or conclusions in this report.
                              We discussed our observations and conclusions with
                              management officials and included their comments where
                              appropriate.

 Prior Audit Coverage         We identified one prior audit report related to the objective
                              of this audit:

                              OIG Management Advisory, USPS Management of
                              Personal Services Contracts (Report Number QR-MA-99-
                              001, dated March 29, 1999), stated that management used
                              contractors to supplement the career workforce dating back
                              to 1992. Corporate restructuring reduced corporate staffing
                              levels, resulting in the retirement or departure of many
                              Postal Service career employees. As a short-term fix, the
                              Postal Service contracted with many former employees to
                              complete unfinished programs and projects.

                              The report also stated the use of contractors may
                              circumvent staffing levels, be more costly, and expose the
                              Postal Service to tax and legal liabilities. Specifically,
                              contract personnel may be construed under the law as
                              employees because of the requirements in their contracts,
                              comparability of their work with career Postal Service
                              employees, and length of their contract terms.

                              According to Internal Revenue Service (IRS) guidance,
                              an individual who performs services for an organization is
                              an employee if the organization can control “what will be
                              done and how it will be done.” Furthermore, it is the
                              relationship — not the label — that governs a worker’s
                              status. This relationship can result in a contractor being
                              what the IRS refers to as a “common-law” employee. The
                              IRS requires employers to withhold and pay taxes on
                              income, Social Security, and Medicare taxes for wages they
                              pay to “common-law” employees, whereas they generally do
                              not have to withhold or pay any taxes on payments to
                              independent contractors. In addition, if independent
                              contractors are later judged as having been “common-law”
                              employees, the employer is liable for taxes and penalties.

                              Management agreed with the observations and suggestions
                              made in the management advisory report. On March 11,
                              1999, the Postmaster General issued a letter to all officers
                              expressing concern about the Postal Service’s growing


                                             3
Controls Over Noncompetitive Contracts Awarded                                  CA-AR-06-002
 to Former Postal Service Employees


                              reliance on consulting services and other contracting
                              methods used to supplement the administrative workforce.
                              This letter announced the establishment of a new
                              Consulting Services Review Committee to review all
                              requests for new or renewal of existing contracts to ensure
                              their necessity.




                                             4
Controls Over Noncompetitive Contracts Awarded                                     CA-AR-06-002
 to Former Postal Service Employees



                                  AUDIT RESULTS
 Controls Over                Overall, we found that controls over the award,
 Noncompetitive               administration, and pricing of noncompetitive personal
 Personal Services            services contracts need improvement. Specifically, we
 Contracts Need               determined that purchasing teams did not always:
 Improvement
                                  •   Negotiate the best price for contracted services.

                                  •   Provide sufficient detail in contract statements of
                                      work (SOWs) to define contractor roles and duties.

                                  •   Follow IRS guidelines when determining the
                                      appropriate classification of the contractor’s
                                      employment status.

                              These conditions occurred because purchasing teams did
                              not always perform market research and price analyses or
                              fully adhere to formal Postal Service purchasing manuals.
                              In addition, the current IIPG and Supply Management
                              Administrative Instruction 2004-013, Personal Services
                              Contracts, December 14, 2004, do not provide sufficient
                              information about the classification and/or treatment of
                              independent contractors versus employees.

                              As a result, the Postal Service paid more than necessary for
                              the services contracted and SOWs did not contain sufficient
                              detail to establish a standard measure of contractor
                              performance or establish a contractor or employee
                              relationship. In addition, management inconsistently
                              classified personal services contractors for tax- and labor-
                              related issues.

 Inadequate Market            Purchasing teams did not always negotiate the best price
 Research                     for contracted services. This occurred because purchasing
                              teams did not always perform market research and price
                              analysis prior to awarding noncompetitive contracts.

                              IIPG, paragraph 2.1.4.a, states market research is central to
                              sound purchase planning. Market research helps determine
                              what supplies or services are available; what suppliers are
                              available; the best way to state requirements; and whether
                              price or cost estimates are realistic, fair, and reasonable.




                                             5
Controls Over Noncompetitive Contracts Awarded                                                       CA-AR-06-002
 to Former Postal Service Employees



                                  Specifically, 29 out of 53 statistically selected contracts
                                  reviewed indicated market research was either identified as
                                  not necessary, shown as not applicable, or insufficiently
                                  performed by the purchasing team. In addition, 30 of the
                                  53 contracts reviewed did not have adequate
                                  documentation supporting the price analyses the teams
                                  performed.

                                  We compared the hourly rates of the 53 contracts with
                                  the hourly rates established in the General Services
                                  Administration (GSA) Schedule3 for similar services. There
                                  were five contracts where the Postal Service’s hourly rates
                                  were higher than the rates available in the GSA Schedule.
                                  Had the purchasing team included a comparison with the
                                  GSA Schedule rates in their market research, they could
                                  have negotiated lower rates.

                                  As a result, we determined that the Postal Service paid
                                  higher hourly rates to five out of 143 contractors. When
                                  projected to the universe of 143 noncompetitive contracts
                                  with former employees, the unnecessary expenditure was
                                  $137,636.

    Recommendation                We recommend the vice president, Supply Management,
                                  direct the purchasing teams to:

                                       1.    Always perform thorough market research and price
                                             analyses as part of the noncompetitive contract
                                             award process.

    Management’s                  Management agreed with the recommendation since Supply
    Comments                      Management’s guidelines/practices include performing
                                  these activities. Management will cascade the report to all
                                  managers within Supply Management under Supply
                                  Management’s Review for Excellence Program (SM REP).
                                  In turn the managers will be required to review the report
                                  and further cascade it within their organization to ensure
                                  that, when appropriate, the recommendation is followed.
                                  The SM REP will be issued within 30 calendar days
                                  following receipt of the final report.



3
  GSA establishes long-term government-wide contracts with commercial firms to provide access
to over 10 million commercial supplies and services that can be ordered directly from GSA Schedule
contractors.

                                                    6
Controls Over Noncompetitive Contracts Awarded                                   CA-AR-06-002
 to Former Postal Service Employees



                              Management generally concurred with the OIG findings of
                              insufficient documentation in the five contracts; however,
                              they did not agree with the reported monetary amount of
                              $137,636. Management stated they did not agree with the
                              GSA labor categories selected because they did not match
                              the work being performed under contract. In addition, they
                              felt the OIG did not consider the cost benefit associated with
                              using former employees with specific Postal Service
                              knowledge and experience.

 Evaluation of                Management’s comments are responsive to the
 Management’s                 recommendation and actions planned should correct the
 Comments                     issue identified in the finding.

                              As to the monetary amount of $137,636, we considered
                              prior Postal Service experience, former salaries, pay
                              grades, and employee position descriptions in an effort to
                              fairly evaluate each individual’s experience. We also
                              obtained GSA’s contracted rates for like jobs at applicable
                              locations. We used the exceptions to calculate these
                              unrecoverable costs which will be reported in our
                              Semiannual Report to Congress.

 Recommendation               We recommend the vice president, Supply Management,
                              direct the purchasing teams to:

                                  2.   Consider using multiple sources for determining
                                       price reasonableness — including comparing
                                       proposed rates with independent sources, such as
                                       General Services Administration Schedules — to
                                       determine fair and reasonable pricing as part of the
                                       market research.

 Management’s                 Management agreed with the recommendation since this is
 Comments                     one of the pricing techniques contained in their guidelines/
                              practices. Management will disseminate this
                              recommendation as discussed in recommendation 1.

 Evaluation of                Management’s comments are responsive to the
 Management’s                 recommendation and actions planned should correct the
 Comments                     issues identified in the finding.

 Contract Statements of       Contract SOWs did not always provide enough detail to
 Work Need                    establish a measure of performance or distinguish whether
 Improvement                  or not management should classify an individual as an

                                             7
Controls Over Noncompetitive Contracts Awarded                                   CA-AR-06-002
 to Former Postal Service Employees


                              employee or an independent contractor. Instead,
                              management wrote contract requirements that sounded like
                              employee position descriptions.

                              This occurred because the purchasing team did not always
                              write contract SOWs with sufficient detail to measure
                              performance or ensure a best value decision. For example,
                              one SOW identified only two elements of work: (1) assist
                              product development with the certification of invoices and
                              general project management; and (2) provide training to
                              candidates for this position in the future. This SOW did not
                              define the time required to perform the tasks, the
                              performance measurements the tasks would be held to, or
                              the deliverable that was expected.

                              Another contract SOW required the contractor to:

                                  •   Provide consulting services on the USPS intellectual
                                      property and patent program.

                                  •   Provide consulting services on patent contracts.

                                  •   Assist in developing a patent program for the Postal
                                      Service Licensing Group.

                                  •   Provide guidance on patent and contractual
                                      negotiations.

                              Again, the SOWs did not identify time frames, performance
                              measurement, and the expected deliverable.

                              In addition, the SOWs reviewed did not always establish
                              whether the individual worked in a Postal Service facility,
                              used Postal Service equipment, and was supervised by a
                              Postal Service employee. These elements, as well as
                              others, are needed to properly classify a contractor in
                              accordance with IRS guidelines, as well as labor and
                              antidiscrimination laws.

                              IIPG, paragraph 2.3.1.b, stated that SOWs are generally
                              used when purchasing a service, rather than an end
                              product. SOWs must describe the work as precisely as
                              practicable and in enough detail to allow a best value
                              decision. The IIPG also stated that SOWs are the standard
                              for measuring performance and are used by both parties to
                              determine rights and obligations under the contract.


                                             8
Controls Over Noncompetitive Contracts Awarded                                   CA-AR-06-002
 to Former Postal Service Employees



                              Inadequate detail in the SOW may have contributed to
                              invalid performance measurement standards and the
                              inconsistent classification of independent contractor versus
                              employee for tax- and labor-related issues.

 Recommendation               We recommend the vice president, Supply Management,
                              direct all purchasing personnel to:

                              3. Review all personal services contracts awarded to
                                 individuals and the related Statements of Work
                                 awarded to ensure they appropriately reflect contractor
                                 status as outlined in Supply Management Instruction
                                 SM 2004-013, Personal Services Contracts, and the
                                 Interim Internal Purchasing Guidelines; and ensure taxes
                                 are being withheld.

 Management’s                 Management agreed with the recommendation. Process
 Comments                     Review, Supply Management Infrastructure, under the
                              SM REP program, will conduct a review of personal
                              services contracts with individuals and the supporting
                              guidelines. As appropriate, contracting officers will follow-
                              up to ensure tax withholdings are in accordance with the
                              Administrative Instruction and the Supplying Principles and
                              Practices (SP&Ps) – effective May 1, 2006. Estimated
                              completion for this action is on or before September 29,
                              2006.

 Recommendation               4. Reinforce to clients seeking professional or technical
                                 services from individuals that Statements of Work must
                                 clearly identify the scope of the personal services to be
                                 performed within the Interim Internal Purchasing
                                 Guidelines definition at 4.5.4.a, and include methods for
                                 measuring performance under the contract.

 Management’s                 Management agreed with the recommendation and will
 Comments                     disseminate it as discussed in recommendations 1 and 2.
                              However, the guidelines mentioned in the OIG report were
                              replaced by SP&Ps and, as such, the relevant practices will
                              be discussed during the SM REP cascade.

 Evaluation of                Management’s comments are responsive to
 Management’s                 recommendations 3 and 4 and actions planned should
 Comments                     correct the issues identified in the finding.



                                             9
Controls Over Noncompetitive Contracts Awarded                                      CA-AR-06-002
 to Former Postal Service Employees


 Employees Versus             As part of this audit, we performed follow-up work regarding
 Independent                  the conditions identified in the 1999 management advisory.
 Contractors                  This management advisory reported that some individuals
 Classification               were treated as independent contractors rather than
                              employees. It also identified the associated risks and
                              liabilities for the inconsistent classification of independent
                              contractor versus employee on personal services contracts.
                              The Postal Service agreed with the finding and took
                              corrective action to effect appropriate changes. In addition,
                              on March 11, 1999, the Postmaster General issued a letter
                              to all officers expressing concern about the Postal Service’s
                              growing reliance on consulting services and other
                              contracting methods used to supplement the administrative
                              workforce.

                              Postal Service purchasing guidelines define a personal
                              services contract as “a contract with an individual under the
                              terms of which the individual will:

                                  •   Work under the direct supervision of postal
                                      personnel.

                                  •   Work on postal premises and use postal equipment.

                                  •   Perform duties similar in nature to those of postal
                                      employees.”

                              The IIPG further states that a personal services contract
                              may create the appearance of an employee-employer
                              relationship and may result in additional costs, such as tax
                              withholding. For this reason, purchasing teams should
                              strive to use contracting vehicles other than personal
                              services contracts, but, when deemed appropriate, they
                              may use them, subject to the reviews and approvals
                              described in the IIPG.

                              Supply Management Administrative Instruction 2004-013,
                              Personal Service Contracts, issued December 14, 2004,
                              provides procedures for the review and approval of personal
                              services contracts. Paragraph 3 describes payment
                              procedures for these contracts, how to determine whether
                              the conditions exist for an “employee-employer”
                              relationship, and how to process the record for payroll
                              purposes.




                                             10
Controls Over Noncompetitive Contracts Awarded                                            CA-AR-06-002
 to Former Postal Service Employees



                                      The risks identified in the 1999 OIG management advisory
                                      are still an issue 6 years later. Even though the Postal
                                      Service revised the purchasing guidelines and issued an
                                      administrative instruction, the information still does not
                                      provide enough guidance to make a clear distinction
                                      between an independent contractor and an employee. For
                                      example, guidance does not address indicators such as:

                                           •   Whether or not the individual operates as a business.

                                           •   Whether the individual uses their SSN or a TIN.4

                                           •   Whether the individual works for other businesses or
                                               only the Postal Service.

                                      IRS Publication 15a, Employer’s Supplemental Tax Guide,
                                      addresses the employee versus independent contractor
                                      issue. It states that to determine whether an individual is an
                                      employee or an independent contractor under common law,
                                      the relationship of the worker and the business must be
                                      examined. All evidence of control and independence must
                                      be considered, including the degree of control and
                                      independence. This falls into three categories, as follows:

                                           •   Behavior control. Does the Postal Service have the
                                               right to direct and control how the worker performs
                                               assigned tasks? An employee is generally subject to
                                               the business’s instructions about when, where, and
                                               how the work is accomplished.

                                           •   Financial control. This addresses how business
                                               expenses are reimbursed. Independent contractors
                                               are more likely to have unreimbursed expenses than
                                               are employees. In our audit sample, travel, where
                                               identified, was a reimbursable expense. And, lastly,
                                               does the individual make his or services available to
                                               the relevant market?

                                           •   Type of relationship. Are the services performed by
                                               the contractor a key aspect of the regular business of
                                               the Postal Service?



4
    All of the contracts reviewed contained the individual’s SSN as their TIN.

                                                        11
Controls Over Noncompetitive Contracts Awarded                                    CA-AR-06-002
 to Former Postal Service Employees



                              As a result of the inconsistent classification of independent
                              contractors versus “common-law” employees, the Postal
                              Service could be held liable for taxes and other penalties.
                              In addition, the Postal Service could be held liable in
                              lawsuits stemming from potential labor law and
                              antidiscrimination violations.

 Recommendation               We recommend the vice president, Supply Management:

                              5. Update Interim Internal Purchasing Guidelines
                                 paragraph 4.5.4.a to ensure that the purchasing teams
                                 understand that any of the elements that define a
                                 personal services contract may be applicable when
                                 classifying a contract with an individual as a personal
                                 services type contract and to improve compliance with
                                 relevant Internal Revenue Service information on the
                                 identification of employees versus independent
                                 contractors.

 Management’s                 Management agreed with the intent of the recommendation.
 Comments                     Effective May 1, 2006, the SP&Ps replaced the Interim
                              Internal Processing Guidelines. As part of the SM REP
                              review discussed in response to recommendation 3,
                              management will review the practice covering personal
                              services contracts in light of this report’s findings and this
                              recommendation for possible update to improve
                              compliance. Any practice update will be subject to review
                              and approval under the governing change process.
                              Management will complete their actions by December 29,
                              2006.

 Evaluation of                Management’s comments are responsive to the
 Management’s                 recommendation and actions planned should correct the
 Comments                     issue identified in the finding.




                                             12
Controls Over Noncompetitive Contracts Awarded                   CA-AR-06-002
 to Former Postal Service Employees


                       APPENDIX A. ABBREVIATIONS
FOIA           Freedom of Information Act
GSA            General Service Administration
IIPG           Interim Internal Purchasing Guidelines
IRS            Internal Revenue Service
OIG            U.S. Postal Service Office of Inspector General
SOW            Statement of Work
SSN            Social Security Number
TIN            Taxpayers Identification Number




                                             13
Controls Over Noncompetitive Contracts Awarded                               CA-AR-06-002
 to Former Postal Service Employees



                                     APPENDIX B

             CALCULATION OF UNRECOVERABLE COSTS

       STATISTICAL SAMPLING FOR CONTROLS OVER
   NONCOMPETITIVELY AWARDED CONTRACTS TO FORMER
              POSTAL SERVICE EMPLOYEES
                         (Project Number: 05BG014CA000)


Purpose of the Sampling

The objectives of this audit were to determine whether controls over
noncompetitively awarded contracts are effective and whether the Postal
Service’s management properly justified and approved noncompetitive
purchases. Additionally, the audit team evaluated the adequacy of procedures
for pricing noncompetitive purchases. In support of the objectives, the audit team
employed a stratified sample to randomly select noncompetitive contracts for
review.


Definition of the Audit Universe

The audit universe consisted of 143 open noncompetitive contracts as of
September 7, 2005, awarded to active and former Postal Service Employees,
within the Supply Portfolio and Information Technology Category Management
Center (IT CMC). This list excluded former Postal Service inspectors. The total
value of the 143 noncompetitive contracts was $7,598,300.50. The OIG’s
CAATs team extracted the universe from the eBuy database.


Sample Design and Modifications

We chose a stratified sample design because we did not have prior knowledge
whether the possible errors would be similar for contracts with active employees
and former employees. We also considered that error types and rates might
differ according to contract value. We defined the strata as the combination of
the employee status (active versus former) and the contract’s value (greater than
or equal to $100,000 versus less than $100,000 versus no value listed). Within
each stratum, we used simple random selection without replacement to randomly
select noncompetitive contracts.

We found only 4 contracts awarded to active employees and 139 contracts
awarded to former employees in the universe, and among them, there were

                                             14
Controls Over Noncompetitive Contracts Awarded                                   CA-AR-06-002
 to Former Postal Service Employees


22 contracts with a value more than $100,000: one for an active employee and
21 for former employees. In addition, there was only one contract, awarded to a
former employee, without the contract value specified in the database.

We sized the sample based on testing compliance with various controls
(attribute tests). Assuming an expected deviation rate of about 20 percent, we
calculated the sample size for a two-sided 90 percent confidence interval with
about +/- 7 percent precision for the attribute tests. We determined, for these
parameters, we needed to sample approximately 53 contracts. We allocated
these samples into five strata, as shown in the following table:

                 Greater Than or         Less Than $100,000    No Contract Value
                Equal To $100,000                                    Listed
                Universe Sample           Universe   Sample   Universe    Sample
  Active           1         1               3         2         0          0
 Employee
  Former            21           15          117       34        1           1
 Employee


The total sampled contracts are worth $3,682,148.20, about 48 percent of the
total value of noncompetitive contracts.

We made all noncompetitive contracts selections for the sample using the
“randbetween” function in Excel to assign random numbers to the contracts in the
universe listing.

Results
The audit team is not reporting any attribute test results; therefore we are making
no projections for the attributes tested.

The sample size we selected for attribute testing was insufficient to achieve
acceptable precision for dollar amounts. This occurred because there was too
much variability in the sample results, which created a wide uncertainty interval:
+/- 75 percent relative to the mean. A larger sample was necessary to achieve
acceptable precision for reporting a point estimate for a dollar value projection.
In such cases, we report the larger of (a) the lower bound (conservative
projection), or (b) the actual amounts from the items reviewed. Because the
actual excess cost found in the sampled contracts exceeded the projected lower
bound, we report the actual amount: $137,600.




                                             15
Controls Over Noncompetitive Contracts Awarded    CA-AR-06-002
 to Former Postal Service Employees


              APPENDIX C. MANAGEMENT’S COMMENTS




                                             16
Controls Over Noncompetitive Contracts Awarded    CA-AR-06-002
 to Former Postal Service Employees




                                             17
Controls Over Noncompetitive Contracts Awarded    CA-AR-06-002
 to Former Postal Service Employees




                                             18
Controls Over Noncompetitive Contracts Awarded    CA-AR-06-002
 to Former Postal Service Employees




                                             19
